<html>
<title> - WELFARE REFORM PROPOSALS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                         WELFARE REFORM PROPOSALS

=======================================================================

                                 HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 OF THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 15, 2015

                               __________

                          Serial No. 114-HR06

                               __________

         Printed for the use of the Committee on Ways and Means
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               ___________
                               
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE
21-285                       WASHINGTON : 2016                    
_______________________________________________________________________________________                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d0b7a0bf90b3a5a3a4b8b5bca0feb3bfbdfe">[email&#160;protected]</a>  
         
         
         
         


                      COMMITTEE ON WAYS AND MEANS

                     PAUL RYAN, Wisconsin, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
KEVIN BRADY, Texas                   CHARLES B. RANGEL, New York
DEVIN NUNES, California              JIM MCDERMOTT, Washington
PATRICK J. TIBERI, Ohio              JOHN LEWIS, Georgia
DAVID G. REICHERT, Washington        RICHARD E. NEAL, Massachusetts
CHARLES W. BOUSTANY, JR., Louisiana  XAVIER BECERRA, California
PETER J. ROSKAM, Illinois            LLOYD DOGGETT, Texas
TOM PRICE, Georgia                   MIKE THOMPSON, California
VERN BUCHANAN, Florida               JOHN B. LARSON, Connecticut
ADRIAN SMITH, Nebraska               EARL BLUMENAUER, Oregon
LYNN JENKINS, Kansas                 RON KIND, Wisconsin
ERIK PAULSEN, Minnesota              BILL PASCRELL, JR., New Jersey
KENNY MARCHANT, Texas                JOSEPH CROWLEY, New York
DIANE BLACK, Tennessee               DANNY DAVIS, Illinois
TOM REED, New York                   LINDA SANCHEZ, California
TODD YOUNG, Indiana
MIKE KELLY, Pennsylvania
JIM RENACCI, Ohio
PAT MEEHAN, Pennsylvania
KRISTI NOEM, South Dakota
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri
ROBERT J. DOLD, Illinois

                       Joyce Myer, Staff Director

         Janice Mays, Minority Chief Counsel and Staff Director

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

             CHARLES W. BOUSTANY, JR., Louisiana, Chairman

TODD YOUNG, Indiana                  LLOYD DOGGETT, Texas
KRISTI NOEM, South Dakota            JOHN LEWIS, Georgia
PAT MEEHAN, Pennsylvania             JOSEPH CROWLEY, New York
GEORGE HOLDING, North Carolina       DANNY DAVIS, Illinois
JASON SMITH, Missouri
ROBERT J. DOLD, Illinois

 
                            C O N T E N T S

                               __________

                                                                   Page

Advisory of July 15, 2015 announcing the hearing.................     2

                               WITNESSES

Boyd A. Brown, Jr., J.D., Area Director, Employment and Training, 
  Goodwill-Easter Seals Minnesota................................    23
Grant E. Collins II, Senior Vice President, Fedcap Rehabilitation 
  Services, Incorporated, Workforce Development; and Executive 
  Director, WeCARE Region II, Fedcap.............................    44
Kristen Cox, Executive Director, Governor's Office of Management 
  and Budget, State of Utah......................................     6
Lieutenant Colonel David Kelly, Program Secretary, The Salvation 
  Army National Headquarters.....................................    16
LaDonna Pavetti, Ph.D., Vice President for Family Income Support 
  Policy, Center on Budget and Policy Priorities.................    36

                       SUBMISSIONS FOR THE RECORD

AEI..............................................................    64
America Forward..................................................    71
America Works....................................................    75
APHSA............................................................    77
Bishop Tribal Council............................................    84
CCWRO............................................................    86
Center on Budget and Policy Priorities...........................   114
CLASP............................................................   124
CWLA.............................................................   134
Equifax..........................................................   139
First Focus......................................................   140
Healthy Relationships California.................................   144
Institute for Child Success......................................   148
Massachusetts Law Reform Institute...............................   156
McDermott Center dba Haymarket Center............................   163
National Fatherhood Leaders Group................................   166
National Skills Coalition........................................   172
Ohio Department of Job and Family Services.......................   177
ReadyNation......................................................   185
Social Finance...................................................   188
U.S. Department of Health and Human Services.....................   190
Western Center on Law and Poverty................................   372
Zeva Longley.....................................................   382


                        WELFARE REFORM PROPOSALS

                              ----------                              


                        WEDNESDAY, JULY 15, 2015

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:32 a.m., in 
Room 1100, Longworth House Office Building, Hon. Charles 
Boustany [Chairman of the Subcommittee] presiding.

    [The advisory announcing the hearing follows:]

ADVISORY

                 FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-3625
FOR IMMEDIATE RELEASE
Wednesday, July 8, 2015
No. HR-06

                 Chairman Boustany Announces Hearing on

                        Welfare Reform Proposals

    Congressman Charles Boustany (R-LA), Chairman of the Subcommittee 
on Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on welfare reform proposals, 
specifically involving the reauthorization of the Temporary Assistance 
for Needy Families (TANF) program. The hearing will take place on 
Wednesday, July 15, 2015, in 1100 Longworth House Office Building, 
beginning at 10:30 a.m.

      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Committee and for 
inclusion in the printed record of the hearing.

      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Click here to provide a submission 
for the record.'' Once you have followed the online instructions, 
submit all requested information. ATTACH your submission as a Word 
document, in compliance with the formatting requirements listed below, 
by the close of business on Thursday, July 29, 2015. Finally, please 
note that due to the change in House mail policy, the U.S. Capitol 
Police will refuse sealed-package deliveries to all House Office 
Buildings. For questions, or if you encounter technical problems, 
please call (202) 225-1721 or (202) 225-3625.

      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.

      
    1. All submissions and supplementary materials must be provided in 
Word format and MUST NOT exceed a total of 10 pages, including 
attachments. Witnesses and submitters are advised that the Committee 
relies on electronic submissions for printing the official hearing 
record.

      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit materials not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.

      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone, and fax numbers of each witness.

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TDD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available 
online at http://www.waysandmeans.house.gov/.

                                 -----

    Chairman BOUSTANY. The Subcommittee will come to order. I 
would like to welcome our Members, witnesses, and guests to 
this morning's hearing on welfare reform re-authorization 
proposals.
    On April 30th, this Subcommittee held a hearing on ideas to 
improve TANF to help more families find work and escape 
poverty. We had an excellent panel of witnesses who shared 
their ideas, and since that time Members and staff have been 
discussing ways that we might work together to improve our 
Nation's welfare system.
    Today our hearing will focus on specific proposals to 
improve the lives of families on welfare by better promoting 
work and helping families in need move up the economic ladder. 
Work is the only way for people to really escape from poverty 
and achieve the American Dream, and we are eager to help more 
families succeed at doing just that.
    The Ways and Means Committee discussion draft released last 
Friday is designed to focus on outcomes, helping people get 
jobs and stay employed, and to help more people move from 
welfare to self-sufficiency. In short, this discussion draft 
revitalizes the work requirement for people collecting welfare 
benefits; provides States more options to help people prepare 
to leave welfare for employment; holds States accountable for 
getting adults off welfare and into jobs; prevents the work 
requirements from being waived; ends the TANF marriage penalty, 
among other key reforms; and maintains funding for the TANF 
program going forward.
    I would like to thank Ranking Member Doggett and his staff 
for working with us on this draft. We are doing this the right 
way, holding constructive hearings, working in a bipartisan way 
on draft legislation, and soliciting expert and public comment 
as the work continues. So we will welcome our witnesses' 
comments, and we will be working together to incorporate that 
feedback as this legislation progresses.
    I would also like to thank the many Members who have joined 
me in introducing specific bills to improve how the TANF 
program works. Whether it is ensuring more adults on welfare 
are engaged in work and activities, providing additional 
flexibility so these activities meet people's specific needs, 
or just setting a goal of reducing poverty through more 
employment, those bills are important markers of our path to 
helping families find work, escape poverty, and achieve the 
American Dream.
    We are joined by several additional Members today, 
including Congressman Paulsen and Congressman Renacci, who are 
former Members of this Subcommittee, and we certainly welcome 
them back. And I appreciate everyone's contributions to this 
effort.
    So, with that, I would like to now yield to the Ranking 
Member of the Subcommittee, Mr. Doggett, for the purposes of an 
opening statement.
    Mr. DOGGETT. Thank you very much, Mr. Chairman. We are 
pleased today to get additional input on the Temporary 
Assistance for Needy Families program, and how it may be 
reformed. This program has limped along over short periods of 
time for a number of years. On Friday afternoon there was a 
discussion draft issued, as the Chairman has indicated, and I 
think that is what it is, a discussion draft that justifies 
considerably more discussion to see how it might achieve the 
objectives, many of which we share and some of which we still 
have divergent opinions on.
    I think there is a recognition that TANF is more hole than 
safety net at present, and its flaws need to be mended. There 
should be a recognition that, since the Welfare Reform Act of 
the nineties that I voted in favor of, much of the objective of 
that Act has not been fulfilled, and that a significant amount 
of dollars have essentially been used by the States during the 
ups and downs of the budget, and the economy, to simply use the 
Federal dollars to supplant what the States were or should have 
been doing, rather than to expand innovative programs and do 
more to get people into the workforce.
    I think that an objective of this bill is not just about 
work, but about opportunity, especially an opportunity to work 
into the middle class, and that the concept of just finding any 
dead-end job for someone who is currently receiving temporary 
assistance, rather than finding opportunity to work and advance 
within our society, is not where we need to be going.
    Of the provisions that I have reviewed in the discussion 
draft, I think some of the most hopeful are those concerning 
vocational education, secondary education, and job readiness 
activities, which would all be permitted under the TANF work 
requirements in the discussion draft. Those programs are 
essential to be included, because they do help prepare people 
for an opportunity up, rather than just a subsistence level of 
participation.
    On the average, the States are only spending about half of 
the funds that they receive today in TANF on core purposes of 
TANF, such as financial assistance, child care, and work 
assistance. In many States, like Texas, that percentage is much 
lower. While the inherently flawed nature of any block grant 
program is what allows this situation to occur, I think we can 
move TANF forward with stronger requirements to achieve more 
targeted spending. States should be spending at least half of 
their funds on these core purposes.
    I do think that there are some reforms in the discussion 
draft concerning State matching, and the State approach to 
these funds that are constructive, that I support, and I would 
only like to see them enhanced.
    The maximum monthly benefit under the program for a family 
of three now is only 28 percent of the poverty level. In Texas, 
the benefits are less than 20 percent of the poverty level. As 
children across the country face homelessness, not one State in 
2014 provided a benefit amount equal to the fair market value 
of rent in that State.
    This is truly a temporary subsistence program. And with 
these deficiencies in mind, I look forward to working with our 
experts to further evaluate if a specific percentage of State 
spending toward financial assistance alone should be required, 
as well.
    There are some ideas that we have explored in hearings over 
the last year for innovation. One of those is social impact 
partnership projects. I am pleased that we will be hearing 
about--more about the experience of Utah, which has been a 
leader on social impact partnerships. Any way that we can 
constructively get the involvement of the private sector and of 
foundations, and can focus on outcomes, I think is 
constructive.
    I certainly agree with Ms. Cox, in her testimony, that 
these social impact partnerships, as they relate to the limited 
amount of TANF funds, should only serve actual participants--
actual recipients of TANF funds. And I think we need to be 
cautious in moving in this area to be sure that dollars that 
are essential for providing services are not consumed in 
consultant and lawyer fees to set up these new arrangements.
    There is, in short, Mr. Chairman, much that we agree with 
in the discussion draft, but much that remains to be discussed 
and improved if we are to achieve genuine reform in the way 
this system works. And I look forward to working with you on 
it.
    Chairman BOUSTANY. I thank the gentleman, and I would 
agree. I think there is much fertile ground that we can cover 
to get to good reforms, with the objective being moving people 
up the opportunity ladder into the middle class. So I think--I 
appreciate the spirit of cooperation.
    We have a very distinguished panel here today. I would like 
to introduce our panel, and I want to thank our panel for being 
here today to provide expert testimony.
    First, we have Kristen Cox, Executive Director, Governor's 
Office of Management and Budget for the State of Utah. Second, 
Lieutenant Colonel David Kelly, Program Secretary of The 
Salvation Army National Headquarters. Third, at this time I 
would now yield to the gentleman from Minnesota, Mr. Paulsen, 
to introduce the next witness, Mr. Boyd Brown.
    Mr. PAULSEN. Thank you, Mr. Chairman, and I want to thank 
you also for holding this important hearing, and letting me 
introduce our next witness.
    Boyd Brown has over 18 years of experience overseeing a 
wide range of programs serving low-income families, individuals 
with disabilities, and ex-offenders. Boyd has extensive program 
management experience, including oversight of several large-
scale TANF employment programs in Minnesota's two largest 
counties.
    He is currently the Area Director of Employment and 
Training at Goodwill-Easter Seals Minnesota, whose main 
programs provide employment services specifically designed for 
people with disabilities, disadvantages, and other barriers to 
work. Last year, Goodwill-Easter Seals provided more than 
63,000 services to more than 35,000 people, helping them find 
employment and achieve independence.
    Prior to joining Goodwill-Easter Seals in Minnesota, Boyd 
worked for Dakota County and for the State of Minnesota's 
ombudsman office for mental health and developmental 
disabilities, coordinating several different initiatives that 
led to public policy changes in the area of health care and 
disabilities.
    I think, Mr. Chairman, Boyd's experience and knowledge will 
be a valuable perspective for this hearing, for the Committee, 
as it looks at ways to reform and improve TANF. I thank Boyd 
for being here, and sharing his perspective, his ideas, and his 
experience with Members of the Committee, and I thank you.
    Chairman BOUSTANY. I thank the gentleman. Next, we have 
LaDonna Pavetti, Vice President for Family Income Support 
Policy, Center on Budget and Policy Priorities. And I am also 
pleased to--I just found out there is a family connection to 
Lake Arthur, Louisiana, a small town in my district. So glad 
you are here.
    And last, and certainly not least, Grant Collins, Senior 
Vice President, Fedcap Rehabilitation Services, Incorporated, 
Workforce Development, and Executive Director, WeCARE Region 
II, Fedcap.
    Thank you all for being here. We have your written 
testimony. I would ask you to try to keep your oral remarks to 
5 minutes, so we can move forward with the question period.
    And with that, Ms. Cox, thank you. You may start with your 
testimony.
    Ms. COX. And will you give me the warning, because I am 
blind?
    Chairman BOUSTANY. I sure will.
    Ms. COX. Okay, great.
    Chairman BOUSTANY. I will give you a warning at 4 minutes, 
and then you will have a minute to wrap up there.
    Ms. COX. Perfect, thank you.
    Chairman BOUSTANY. Thank you.

STATEMENT OF KRISTEN COX, EXECUTIVE DIRECTOR, GOVERNOR'S OFFICE 
            OF MANAGEMENT AND BUDGET, STATE OF UTAH

    Ms. COX. So, Mr. Chairman, Members of the Committee, and 
Ranking Member Doggett, thanks for having me.
    Utah has a big--a deep, rich history around TANF. And 
before this job, I ran the Department of Workforce Services, 
which administers TANF, as well as almost 100 other Federal and 
State programs, safety net programs and workforce development 
programs. So I think we have a very unique perspective on 
integrating safety net programs, those challenges that are 
inherent across safety net programs, as well as the importance 
of work through the way our department is established.
    Through that lens I want to talk about four issues that are 
relevant to the discussion draft. One I will touch on lightly, 
and, for me, it is the goal of aligning safety net programs 
toward a common goal and objective. Ninety-nine percent of our 
TANF recipients receiving Federal funds--I mean financial 
assistance--are on other public assistance programs, primarily 
Medicaid and SNAP, with different eligibility requirements, 
different work requirements. Some can do transitional services, 
some cannot. It is not very cost-efficient.
    It is cumbersome for us, as a State. And it is, more 
importantly, very cumbersome for our clients, who are trying to 
navigate multiple safety net programs that don't seem to have a 
cohesive strategy or goal. So, while I recognize the focus of 
today is on TANF, which is fantastic, I hope it is part of a 
broader discussion on overall reform.
    My second point is on accountability. In Utah we are very 
excited to see this going toward more of an outcome-driven 
system. When I ran the Department of Workforce Services, there 
was a time that I refused to even look at the participation 
rate, because it was driving our systems more than employment 
was, and put the whole focus on employment outcomes, instead. 
We think it is a great direction to go.
    But in the written testimony I have outlined a few areas 
that I think still merit discussion and refinement, moving 
forward in this direction. For example, we think cost per 
service delivery should absolutely be fundamental to this 
discussion. How do you include positive exits? For example, if 
somebody exits for increased income due to marriage, as you are 
trying to eliminate the marriage penalty, should that count as 
a positive closure or not? Same thing with SSI or SSDI. Those 
are topics that need discussion.
    Some of the lag indicators that we are seeing in the 
performance measures could take 14 to 17 months. It is 
difficult to budget in that scenario. Do I budget a portion of 
my funds ongoing at one time, not knowing if I am going to get 
dinged on the performance measure?
    A few other challenges: Should States be held accountable 
if somebody exits for non-compliance and they are sanctioned? 
How do we deal with the national new-hire directory, so that 
States can get credit for people who get work out of State?
    So, I have listed a number of areas that I think still 
merit some consideration, but we think the direction is 
absolutely going in the right direction.
    The third point has to do with State flexibility. With the 
increased accountability, which we think is fantastic, we think 
States should have maximum flexibility. So we definitely 
support eliminating the distinction between non-core and core 
activities, and think that is the right thing to do for States.
    I would suggest, though, that there are two areas that you 
may want to tighten up, and that is if we are going to open up 
more freedom for education and vocational training after 24 
months, we think it should be training in jobs in demand, and 
then should be a rigorous review for what kind of training 
people enter into, and what taxpayers pay for, as well as when 
we look at subsidized employment and some of those grants, that 
we make sure that those are going into the private sector and 
government entities are not benefitting from the subsidized 
employment initiatives.
    My final point, really, is around this evidence-based 
evaluation.
    Chairman BOUSTANY. We are at the 4-minute mark now.
    Ms. COX. Okay, thank you. We totally support that. We are a 
little concerned with a lot of language around the random 
control trials. While that is the gold standard, they are not 
always appropriate, and sometimes not even ethical in 
government situations. So, having flexibility around the full 
continuum of evidence-based interventions--exponential 
research, propensity scoring, other options that are more 
nimble and more operational--we want to make sure States have 
that flexibility.
    And going to the social impact bonds, as well, we have 
listed comments on the pros and cons of social impact bonds. 
They, from my perspective, are a great catalyst, but not 
necessarily a panacea. They cost money and time and they are 
hard to scale, but they can help reinforce the need for good 
data decisions, and understanding the cost-to-value ratio in 
our services.
    I would add with this last point I am excited to see this 
increased focus on the work. It is the way out for people. And, 
personally, not--I am going to put my personal hat on for a 
second. Being blind, for years I was on Social Security 
disability in a time in life when I thought work would never be 
a possibility for me. Work is the thing that brings dignity to 
somebody's life. It brings responsibility, a sense of 
contribution, and it is not a punishment when we ask people to 
work and require that they work, it is a way to transform 
lives. And I will be open for questions. Thank you.
    [The prepared statement of Ms. Cox follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    

                                 -------
                                 
    Chairman BOUSTANY. Thank you very much, Ms. Cox.
    Mr. Kelly, you may proceed.

STATEMENT OF LIEUTENANT COLONEL DAVID KELLY, PROGRAM SECRETARY, 
            THE SALVATION ARMY NATIONAL HEADQUARTERS

    Mr. KELLY. Thank you for the opportunity to share with you 
today.
    This year the Salvation Army is celebrating its 150th year 
of ministry to the world, now serving in 126 countries. Our 
mission remains to tell people of the love of God expressed 
through Jesus, and to meet human needs in His name without 
discrimination. While many probably only know us for Christmas 
kettles, thrift stores, and rehab centers, each year we also 
serve 30 million individuals and provide 50 million meals and 
10 million nights of shelter.
    I admit, though, that, despite this quantity of assistance, 
in the past several years we have done some soul searching 
about whether or not, in the midst of all of our efforts, we 
are sufficiently focused on finding long-term solutions for 
those who are coming to us for assistance.
    The outcome of this self-evaluation is a renewed 
determination to support life-transforming opportunities for 
those who come for material assistance. That doesn't mean we 
are going to abandon our efforts to feed and shelter, to 
provide character-building programs for youth, daycare, summer 
camps, or disaster assistance, but it does mean that we are 
going to intentionally carve out resources, both personnel and 
financial, to help families move out of poverty, to make the 
transition from serving to solving.
    This new initiative, piloted in some locations over the 
past 3 years, and now being rolled out nationally, is called 
Pathway of Hope. It is an approach that provides enhanced 
services to families who desire a path out of inter-
generational poverty. Food pantries, soup kitchens, daycares, 
they are all going to continue, but we are going to make a 
focused effort to actually help families move further than they 
have moved before.
    Once engaged in the program, teams will walk alongside 
families as part of a partnership effort to facilitate changes 
and provide support. Pathway of Hope families meet regularly 
with Salvation Army caseworkers to develop goals and implement 
an individual plan that will increase their self-sufficiency 
and hope for the future. Trained staff will complete 
assessments with the families to tailor service delivery to 
their specific needs.
    Our pilot programs are filled with measurable outcomes, and 
there is reason for optimism about the potential impact this 
will have. I share that with you because the legislation we are 
looking at today seems to blend well with the success we are 
finding these past several years.
    We believe that any new legislation should make provision 
for the following key elements.
    We affirm the elimination of what is commonly referred to 
as the ``marriage penalty'' in every State. It is difficult to 
fathom any positive societal impact coming from indirectly 
encouraging the breakdown of a two-parent family. Extensive 
research shows the long-term negative impact the family 
breakdown has upon a child's future educationally, 
economically, and in future opportunities. The marriage penalty 
produces only a small, short-term savings, but the long-term 
cost, both to the family and to the budget, is enormous.
    Number two, I am very encouraged to note the reference to 
improving and customizing individual opportunity plans. 
Educators long ago understood the value of individualized plans 
for children struggling to keep up in school. These individual 
plans have helped countless children overcome challenges, catch 
up and thrive in academic settings. And educators understand 
that early intervention is not only good for the children, but 
saves significant cost later.
    An equivalent approach in addressing families in poverty 
will have a similar positive impact. While it may be less 
expensive in the short term to just treat everyone exactly the 
same, that approach has not proven to be successful. And the 
addition of customized individual opportunity plans is a great 
step, from our perspective.
    Number three, allow more education to count toward activity 
hours. We find that most individuals in poverty have an 
excellent employment record, and simply don't have the 
education needed to progress to a higher, more sustainable 
economic level. Education is a critical step to finding a 
stable job at a livable wage.
    And fourth, fund pilot projects. This is a key provision, 
and consistent with the success we have experienced with 
Pathway of Hope programs and other initiatives. It makes good 
business sense to experiment, identify best practices, and 
remain somewhat fluid during initial implementation, as new 
ideas evolve. I should add, though, that in the same way we are 
implementing Pathway of Hope while maintaining our financial 
commitment to much-needed programs, we urge you not to decrease 
funding for TANF, but rather, consider the pilot programs as an 
additional step.
    The Congressional Record will show that on December 15, 
1982, a Salvation Army officer came to Washington to testify 
about homelessness and poverty at a congressional hearing just 
like this one. That officer was my father, then Major Paul 
Kelly.
    I pray that we will get this right, that we will mold the 
best possible legislation and together make meaningful 
improvements to how we address poverty in this generation.
    If the next generation is here to testify in 30 years, let 
it be to celebrate that we have dramatically improved how we 
help those in greatest need. Thank you.
    [The prepared statement of Mr. Kelly follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]     

                                 -------
                                 
    Chairman BOUSTANY. Thank you, Mr. Kelly.
    Mr. Brown, you may proceed.

     STATEMENT OF BOYD A. BROWN, JR., J.D., AREA DIRECTOR, 
    EMPLOYMENT AND TRAINING, GOODWILL-EASTER SEALS MINNESOTA

    Mr. BROWN. Thank you for the opportunity to testify on our 
experience as a local TANF community-based provider. As Mr. 
Paulsen mentioned, my name is Boyd Brown, and I am the Area 
Director of Employment and Training at Goodwill-Easter Seals 
Minnesota. We are a leading provider of workforce services in 
our State, and our stores serve as the economic engine for our 
employment programs. This past year we served 35,000 people 
with various employment, including 1,500 families who came to 
us through TANF.
    Our recommendations for TANF policy changes are, first, 
hold providers accountable for what matters most: results. 
Second, allow providers to document progress toward employment 
goals, not hours of participation. Third, offer flexibility and 
allowable activities to meet the unique and individual 
challenges our families face. And, fourth, include fathers as 
part of the solution by funding fatherhood initiatives, making 
the voluntary services of responsible fatherhood a permanent 
part of TANF. Fathers are part of the solution to stabilizing 
low-income families.
    Next I talk a little bit about Elizabeth's story that was 
in my written testimony. When our counselor first met 
Elizabeth, she slept most nights in her car and with her 
daughter. Elizabeth was adamant that she needed to find a job, 
and that income was the quickest way to secure housing. She had 
dropped out of school in the 10th grade. To her, education was 
a luxury she could not afford. Elizabeth's initial employment 
plan included 6 weeks of job search, and she gave 100 percent 
to finding that job, but to no avail.
    Usually, the next step in the process is unpaid work or 
volunteering. But her counselor knew this would not lead 
Elizabeth to long-term stable employment. The counselor 
convinced Elizabeth to include GED preparation in her plan, 
even though it wasn't counted in the work participation rate. 
While attending GED classes, Elizabeth was couch-hopping from 
one friend's home to the next. Thirteen months later, she 
completed her GED. Elizabeth said, other than the birth of her 
daughter, it was the proudest day of her life.
    Three days later, she landed a job at Target, and the 
following week enrolled at a community college, pursuing a two-
year human services degree. She moved into her own apartment. 
Her work hours increased, and she discontinued assistance in 
late 2014. She will graduate in June of 2016, and plans to 
pursue a BA to become a social worker.
    So, what does Elizabeth's story tell us? First, education 
and training are important. Research shows that additional 
education can yield substantial earning gains, which means that 
participants with more education will need less government 
assistance to meet their basic needs. Elizabeth's story also 
tells us that the one-size-fits-all approach dictated by the 
work participation rate with its core and non-core activities 
doesn't work for many participants, including Elizabeth.
    And after spending, on average, 53 percent of their time on 
documentation and verification, our TANF career counselors 
simply do not have the time to provide the needed family 
supports that change outcomes. Elizabeth's story illustrates 
that, with time, meaningful and productive relationships 
develop that lead to success.
    Elizabeth's is only one story. We serve many people who are 
homeless, who have serious mental illness, other disabilities, 
who have criminal records, and little work experience. We 
succeed by building strong relationships with employers, and 
responding flexibly to the very different needs and situations 
of the people we serve.
    In my written testimony I describe multiple innovative 
Minnesota TANF programs. One I will highlight here is the 
Father Project. The Father Project offers voluntary services 
for low-income dads to help them support their children, both 
financially and emotionally. More than 90 percent of the 1,500 
dads enrolled reported that the project helped increase their 
commitment to financially support their family, increased their 
child support payments, and 481 obtained jobs. A return on 
investment study demonstrated a return of $3.41 for every 
dollar invested in the Father Project.
    In conclusion, by focusing on outcomes and not process, 
adding flexibility and activities allowed, and reducing the 
documentation demand, we can increase employment outcomes and 
move families off of assistance and out of poverty. We believe 
in accountability. However, hold us accountable for the 
outcomes that matter, which are getting people into jobs and 
off of assistance.
    So, thank you for the opportunity to share our experience 
as a TANF provider. We appreciate the Committee's interest in 
hearing from the field, and are happy to serve as a resource to 
you as we look to increase both effectiveness and efficiency of 
how TANF is implemented across the Nation. Thank you.
    [The prepared statement of Mr. Brown follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]     

                                 -------
                                 
    Chairman BOUSTANY. Thank you, Mr. Brown.
    Ms. Pavetti, you may proceed.

STATEMENT OF LADONNA PAVETTI, VICE PRESIDENT FOR FAMILY INCOME 
     SUPPORT POLICY, CENTER ON BUDGET AND POLICY PRIORITIES

    Ms. PAVETTI. Thank you for the invitation to testify today. 
In my recent testimony, I presented data showing how few poor 
families TANF serves and how little TANF does to help poor 
families find work and escape poverty. In my testimony today I 
will focus on ways in which the draft bill could help improve 
TANF's performance in these areas, and I also will suggest 
additional changes to address some of TANF's fundamental flaws.
    States have long identified the complexity and rigidity of 
TANF's countable work activities as hindering their ability to 
operate an effective work program. The draft bill makes many 
improvements that address those issues. We fully support the 
changes in the bill that will expand recipients' access to 
education and training, encourage States to address the needs 
of TANF recipients with significant employment barriers, and 
remove the disincentives for serving two-parent families.
    I encourage the Committee to go further by eliminating the 
30 percent cap on vocational education, which, in this economy, 
doesn't seem to make any sense.
    The draft bill's elimination of the caseload reduction 
credit is a positive change, as it lessens the incentive for 
States to continually reduce their TANF caseloads and not serve 
people in need. But it effectively raises the target work 
participation rate that States must meet, and it will increase 
the burden on States to place a greater share of families in 
work activities.
    While the proposed work activity changes will enable States 
to count more people toward meeting the rate, a sizeable gap 
will likely remain, which could encourage States to further 
restrict access to the program. So I think we need to be paying 
attention to this access issue.
    The draft bill's requirements that States failing to meet 
the work rate must increase their State spending is a 
significant improvement over the current penalty structure. One 
change we would suggest is requiring States to reinvest those 
additional resources to the core purposes of TANF. We believe 
that States should be held accountable for employment outcomes, 
but we are concerned that the details, as outlined in the 
draft, may be unworkable, and we are hoping that this is an 
area where we can actually have some conversation.
    I believe it is realistic and appropriate to hold States 
accountable for employment and retention, but I worry that the 
short-term measurement limit and the limited assistance that 
TANF programs usually provide--that it may not be realistic to 
hold them accountable for advancement. As an alternative, I 
suggest measuring median earnings at one point in time to 
encourage States to place recipients in higher-paying jobs to 
really go toward meeting the goal of reducing poverty.
    We are concerned that the proposed penalty structure for 
these new outcome measures are too onerous and too complex. The 
long lag time required to gather and report the data poses 
substantial challenges. And the penalty is harsher than any 
initial penalty currently, and it appears that States may have 
no opportunity to remedy the problem before block grant funds 
are withheld. I also worry that, because the penalties are too 
onerous, what States would do is negotiate very low rates, and 
we wouldn't see sort of the employment outcomes and the push 
toward high outcomes that you may want to see.
    So, I would propose an alternative approach that emphasizes 
improvement and focuses directly on States that fail to meet 
their negotiated goals. First, require States to develop a 
program improvement plan, and provide technical assistance to 
help them do so. And second, require States to increase their 
State funds and target them to work activities, just as 
required for the work participation rate.
    Implementing an outcome measure will not be easy for 
States, nor will it be costless. Most States currently have no 
data on employment outcomes which they can use to set 
meaningful outcome targets. And to fill that gap, what I 
recommend is starting with a benchmark year in which States 
would be required to report on outcomes, but wouldn't face any 
penalties. That would allow them to have some benchmarks that 
they could use to negotiate targets for the future, and to 
really build on and make improvements.
    A key flaw of the TANF block grant is that permissible use 
of the funds is so broad that States spread them across many 
areas of the budget. TANF reauthorization provides a key 
opportunity to reclaim some of those funds, and it is one that 
shouldn't be missed. We believe requiring States to spend a 
substantial--a specific share of their TANF resources on core 
purposes is essential for improving TANF work programs. There 
are several possible approaches here.
    First, all States could be required to spend a specified 
share of TANF funds on core activities, as Representative 
Doggett suggested. Alternatively, States that fail to meet the 
rate could actually--benchmarked could be required to move 
those additional funds to those purposes.
    The draft bill adds a new purpose on reducing poverty. And, 
while this is a laudable goal, TANF can't reduce poverty if it 
fails to reach poor families. So one of the suggestions I would 
make is that we actually add a third outcome measure, and that 
is access to the program. If families aren't served by the 
program, we can't reduce poverty, and they can't have access to 
the services that the program is likely to show.
    So, I think that TANF reform is long overdue, and I am 
looking forward to working with the Committee to see how we can 
move forward to make positive changes. So thank you.
    [The prepared statement of Ms. Pavetti follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]     

                                 -------
                                 
    Chairman BOUSTANY. Thank you, Ms. Pavetti.
    Mr. Collins, you may proceed.

STATEMENT OF GRANT E. COLLINS II, SENIOR VICE PRESIDENT, FEDCAP 
 REHABILITATION SERVICES, INCORPORATED, WORKFORCE DEVELOPMENT; 
        AND EXECUTIVE DIRECTOR, WECARE REGION II, FEDCAP

    Mr. COLLINS. Good morning, Chairman Boustany, Ranking 
Member Doggett, and distinguished Members of the Committee. I 
am pleased to appear before you today to discuss the next phase 
of welfare reform.
    I am currently the Senior Vice President of Fedcap 
Rehabilitation Services, Incorporated's Workforce Development 
practice area. Fedcap is an 80-year-old non-profit human 
service company that specializes in addressing the economic 
well-being of those with barriers to work. My comments today 
will center around the provisions found in H.R. 2968 and H.R. 
2952 on casework, employment, and retention, as much of what we 
do is consistent with these bills.
    Fedcap administers a wide range of employment programs, 
including placement services for the court-involved individual 
re-entering the workforce, placing veterans as well as public 
assistance recipients. We also provide employment services for 
recipients with a wide range of health claims, which we deliver 
through a comprehensive case management model called WeCARE, 
Wellness Comprehensive Assessment Rehabilitation and 
Employment.
    A group often exempted from participation in most States, 
each year we place thousands into employment, as we 
consistently exceed our contractual goals for job placement, 
while also achieving a job retention rate at 6 months of just 
over 73 percent. To achieve these outcomes we employ a 
strength-based assessment model, where we focus on what our 
program participants can do, rather than focusing on their 
weaknesses. Engagement really begins with our receptionist. 
However, relationship-building is established with our case 
managers, whom we refer to as our ambassadors of self-
sufficiency.
    Our unique approach to case management begins with a set of 
mental tools. Henry Ford once said, ``Whether you think you can 
or think you can't, you are right.'' Mr. Ford was referring to 
what is commonly known as the Pygmalion Effect, or self-
fulfilling prophecy. In short, what you expect is what you get, 
so we expect success and shift paradigms up front. Since we 
expect our participants to work, we refer to them as job-
seekers from that point forward.
    Core to our success is our belief that, number one, there 
are jobs; number two, that people are better off working; 
number three, people do want to work. Let me discuss each 
briefly.
    Number one, there are jobs. We remind our job seekers that, 
despite the unemployment rate, one job is all they need, and 
that employers have openings.
    Number two, people are better off working. There are many 
reasons why we work. Work adds to a person's self-esteem, it 
improves their lifestyle. Work can provide opportunity and hope 
for the future. There is a platform when each of us can add to 
an employer's business or to our communities, or advance a 
cause, and work is the way we keep our minds and skills sharp. 
It is one of the primary ways we manifest our potential. There 
is a certain dignity that comes from work that only work can 
provide.
    And, number three, people want to work. A pathway to the 
best job for a person can be reached from taking a job now.
    Work is the focus of our initial face-to-face meetings. 
Case managers conduct one of several assessments, starting with 
an impromptu mock interview on the spot. Within the first few 
minutes, we look to see if the job seeker is employer-ready. 
With a sense of urgency, we get the job seeker placed 
immediately, or track them quickly, often the same day, into a 
second, more formal assessment called the Diagnostic Vocational 
Evaluation, or DVE. The DVE is a battery of assessment tools 
that is designed to help the job seeker understand their work-
based strengths. The outcome of the DVE is the basis for the 
development of the job seeker's individual plan for employment, 
which includes, among other things, the top three jobs they are 
looking to obtain.
    The plan is established, agreed upon, and signed by the job 
seeker and case manager. We then fortify this with an action 
plan that clearly identifies the job seeker's short-term and 
long-term goals. The initial work activity, and weekly hours 
are assigned, similar to what is proposed in the TANF 
reauthorization draft.
    Except for a few work activities, most assignments are no 
more than 12 weeks in length. To extend the activity beyond 12 
weeks, a comprehensive employment plan review and new plan with 
new goals must be established. The draft TANF reauthorization 
envisions this same approach, meeting every 3 months to review 
progress and to determine next steps.
    We also provide case management even after employment 
begins. Once the individual is employed, we typically meet with 
them no less than monthly for up to 6 months. This is 
consistent with the focus on the outcomes in the draft, and is 
one way to get States to follow recipients after they leave for 
work, to make sure they don't come right back.
    Personal responsibility is at the core of the TANF program. 
Effective case management, regular progress reviews, clear, 
practical action plans for employment and retention can often 
provide the necessary engagement to help more job seekers 
establish their own employment futures.
    I, along with the other members of this panel, stand ready 
to work with you to make economic independence for America's 
neediest families a reality. I would be happy to answer any 
questions you might have.
    [The prepared statement of Mr. Collins follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                                 --------
    
    Chairman BOUSTANY. Thank you, Mr. Collins, and thank you 
all for your testimony. We will now go to a question and answer 
phase of this hearing. Let me start by asking Ms. Cox a 
question.
    You have administered the TANF and workforce systems in 
your prior role, and you now administer an office focused on 
creating more value for every tax dollar invested. And, to me, 
that sounds like focusing tax dollars on results, and not just 
paying for a process, but to try to really get an outcome, and 
hopefully, a favorable outcome.
    The TANF statute requires States to ensure 50 percent of 
their welfare caseload participates in work or activities. And 
while this measures how a State is engaging welfare recipients 
in activities while receiving benefits, we don't currently 
measure how well the States are doing in helping welfare 
recipients leave TANF for work, and hopefully meaningful work.
    This discussion draft would reserve a portion of the TANF 
block grant to pay States based on their success in achieving 
three goals: moving TANF recipients off of welfare into work; 
keeping these former welfare recipients in work; and helping 
them increase their earnings over time. All, we think, are 
laudable goals.
    How do you think changing the TANF program from one that 
focuses solely on process to one that focuses more on these 
types of outcomes might encourage States to move more people 
into jobs and really, actually, help them move up the economic 
ladder? And what are some of the pitfalls we need to look at, 
going forward in this?
    Ms. COX. So, what you just said is music to my ears. Having 
been in government for a while, I struggle sometimes with the 
lack of outcome and accountability that we have on programs 
that are being funded by taxpayers, and should have impacts for 
people. It can be very process-focused, and very bureaucratic. 
And, at the end of the day, we don't know if we have made a 
difference or an impact.
    So, when we--when I took over the TANF program, it was 
completely participation-driven, and there wasn't--what is 
her--here, down here, what she talked about, you know, they may 
not even have the employment data. So, you know, like I said in 
my testimony, we--I said I am not looking at participation. I 
want employment outcomes. And it shifted the culture, that that 
is what we were about. And then can we design participation 
activities that actually lead to employment outcomes, rather 
than just sitting people in services, so that we can get the 
participation credit? So we are all about that.
    A few cautions that I think would be important to continue 
to vet. One, the idea--I think it is 30 or 40 percent would be 
on increased earnings in the fourth quarter. I don't know if 
that is arbitrary, I don't know if the general public 
generally, within the fourth quarter, receives increased 
earnings or not. I think it is a good aspirational concept to 
consider, but I don't know what the trend is in the general 
population. Is that within a State's or a provider's ability? 
States could potentially game it. You could put them in part-
time employment, knowing that it will move to full-time in the 
fourth quarter, so your earnings increase, but you have never 
really made a big difference in their actual earnings, long-
term. So there are different ways that that could be gamed, and 
I think that is an area that merits consideration.
    The lag issue is one of the other issues I would want to 
explore. When I budget or do long-term contracts, I look at 
ongoing versus one-time funding. And if I don't know if I am 
going to have that money in 17 months, I am not sure how to 
budget for that. Now, if I am talking a 3 percent, it is, you 
know, 3, 3, 4, a total of 10, that is not going to make or 
break my budget. But it would potentially impact how I would 
set up contracts, et cetera. So working through that lag, and 
giving States a little bit more immediate feedback if they are 
going to hit that or not is going to be something I think that 
we need to continue to discuss and work through.
    So there are other issues there, but I don't think any of 
them are insurmountable. I would offer this counter-comment. I 
like the fact that money may get lost. A lot of our Federal--
maybe nobody else will agree with me on this, but a lot of our 
Federal programs threaten lost money. Right? And you go through 
a lot of corrective action plans, and yada, yada. But, 
generally speaking, there is not a real consequence. There just 
isn't. And these funds should be considered precious, scarce 
resources, and I think it is fair to say, if people don't 
perform, there is a consequence to it. Now, maybe they should 
have some technical assistance and a chance to improve. But at 
some point there needs to be a real consequence if we are not 
performing.
    Chairman BOUSTANY. Well, I thank you for bringing the value 
of your experience to bear on this. It is really helpful to us.
    Mr. Doggett.
    Mr. DOGGETT. Thank you very much.
    Dr. Pavetti, as you know, the discussion draft leaves open 
for discussion this question of how much the States are 
devoting to the core purposes of cash aid, child care, and work 
activities. How do you feel that should be--that blank should 
be filled in, and why?
    Ms. PAVETTI. I definitely think that there needs to be a 
requirement that States spend a certain share of their funds on 
core purposes. And if there isn't, I don't think you will see 
meaningful change. There are some States that spend as little 
as 1 percent of their TANF funds on work programs. And to 
expect that we can increase--reduce poverty if they are 
spending so little, I think, is unrealistic.
    So, I really think there are two ways. I think one is to 
require all States to get there, and to give them sort of a 
time to get there. And the other is to--you know, in the draft 
bill there already are expectations that States will have to 
spend more State money if they don't meet those requirements. 
And so that would also be--rather than that--just being able to 
go anywhere in the State budget, that that really be directed 
to State core purposes.
    But I think it is one of the huge failures of TANF, that so 
many of the funds have been pulled away from families who 
really are the most needy, and this is an opportunity to 
reclaim those funds. And it would be a shame if we didn't 
actually get those back.
    Mr. DOGGETT. When welfare reform was originally approved 
back in the nineties, wasn't one of the objectives--and I think 
you make reference to this--people would work their way not 
only just to work, but to work their way out of poverty, and 
work into the middle class? And how well has that objective 
been satisfied?
    Ms. PAVETTI. So what we know about the work--about work and 
earnings among TANF recipients is that, one, we have very 
little recent data on employment among TANF recipients. We have 
data from the early years, but most States don't collect that 
data and don't report it. So we really don't even know where 
the starting point is in setting these benchmarks, because we 
don't know how many get employed. So that is one thing I think 
we need to think about.
    But for those who do get employed and start out in low-wage 
jobs, there was an expectation that people would move up. But 
that is really--if you look at the experiments, you don't see 
sort of increases in earnings over time. What you see is some 
increases in employment. And where the programs really fall 
short is in stable employment.
    So, right now there are lots of people who get jobs, but 
they don't hold them. And if people are going to increase their 
earnings and increase them over time, there are two things that 
make a difference. One is holding on to jobs, and the other is 
having the education and the skills that are demanded in the 
labor market, so that they can move up.
    So I think Boyd talked in his testimony about a very 
compelling example of why education really does make a 
difference. So I think that the education and training--we have 
evidence that there is a lag, there is an initial--there is--
that gain isn't immediate. But when you compare people who are 
in those training programs, usually 2 years out their earnings 
gains are much greater than people who don't participate in 
them.
    So I think we need to be really encouraging States to move 
in that direction.
    Mr. DOGGETT. If there are no new dollars, which is the case 
with this proposal, no additional funds added, and if a State 
can continue to devote only 1 percent to work--in the case of 
one of the States you mentioned--how realistic are the 
provisions in the bill that there be an individual opportunity 
plan and State counseling with the recipient every 3 months?
    Ms. PAVETTI. I think that is pretty unrealistic, that 
States will be able to do that. I think it is the right thing 
to do, but I am not sure how you do it without resources. So I 
think that it is really something that needs to be paid 
attention to.
    I think the other thing that is important is sort of 
thinking about--what happens in TANF is that we sort of--we 
provide a little bit of services to everybody, including people 
who may not need any services, and really thinking about how 
can you take what resources are there, and really concentrate 
them on the people who need the most help. And I think the work 
participation rate, and the way it is designed, and the focus 
on hours really does encourage this across the board, serve 
everybody, even if they don't need it.
    So, I think there is--both we should temper our 
expectations, if the money isn't there, but also really think 
about can you use the resources that are used better, and not 
spread them so thin?
    Mr. DOGGETT. You probably covered this already. But, in 
short, what do you think are the most important changes that 
need to be made in the draft?
    Ms. PAVETTI. I think the most important changes--there are 
two. I do think that the elimination of the core/non-core 
distinction is pretty--is quite important for States, because 
it gives them much more flexibility, and it helps on the 
education and training aspects. And the other is I think the 
movement to outcome measures is hugely important. I don't think 
the details are quite right in the draft, and that we really 
need to think those through. But I do think actually adding 
outcome measures will change the way States think about what 
they do, and will change their behavior.
    Mr. DOGGETT. Thank you.
    Thank you, Mr. Chairman.
    Chairman BOUSTANY. Mr. Young.
    Mr. YOUNG. Thank you, Chairman, and thank you to all of our 
witnesses here today.
    I will begin with where I am headed with a question. It 
will be addressed to Mr. Kelly of the Salvation Army and Mr. 
Brown of Goodwill, and that is, can better casework reduce 
poverty and increase employment? Your organizations are on the 
front line of our efforts to reduce poverty. As Chairman Ryan 
likes to say, ``The Federal Government is the rear guard, but 
you are the vanguard of this effort, clearly.''
    I am sure those you work with who are receiving TANF 
benefits often also receive other benefits and services. I have 
experienced this on the ground throughout my State of Indiana. 
And in many cases, the individual must meet with multiple case 
workers, and visit different offices to receive these benefits 
and meet the different requirements of each program. They may 
also have to make repeat visits to these various case workers, 
as their circumstances change over time.
    Now, as I think of the served population, these are people 
who lack the resources, they lack the time, oftentimes. They 
are under great stress. And moving from caseworker to 
caseworker, office to office, through a constellation of 
different programs, can not only be mind-numbing, but 
problematic and a deterrent, even, to seeking the assistance 
that they require.
    It is burdensome, it is confusing, it is unworkable, it is 
insensitive, it is irresponsible, and unacceptable. So we have 
to coordinate our efforts to solve poverty, and that starts 
with good casework, to my mind.
    And so, this week I introduced the Coordinating Assistance 
for TANF Recipients Act. This would provide funds for States to 
test better ways of helping recipients move through welfare and 
into work and self-sufficiency. This bill, which is now part of 
the larger Ways and Means discussion draft we are focusing on 
here today, would provide funding to test and evaluate various 
efforts along these lines.
    So, back to the original question. Mr. Kelly, we will begin 
with you, sir. How might supporting more coordinated casework 
bring dignity and opportunity to more welfare recipients by 
helping them move into work and out of poverty?
    Mr. KELLY. Well, first, let me say I think that is a great 
observation. And we would add to that that our experience with 
those who are living day to day in poverty are suffering from a 
severe lack of hope, that they have essentially given up. And 
part of that giving-up process is the despair that comes from 
going from office to office without, really, a coordinated, 
centralized way to help them in the process. So, we would, I 
think, be advocates of a more thoughtful, strategic approach to 
how we are caring for people.
    I would also say we need to help all parties keep in mind 
what our actual goal is. Our actual goal is not a job that they 
have, either temporarily or part-time or barely allows them to 
get through a day. We are looking to move people out of 
poverty. I assume that is what everyone's goal is. And you 
can't do that without a large amount of coordination, both 
within the casework field, and in terms of the involvement of 
the client themselves.
    Mr. YOUNG. Mr. Brown. Yes, sir.
    Mr. BROWN. Thank you for the question, Mr. Young. Actually, 
I think you are right on point. And, actually, in Minnesota we 
have had several initiatives actually looking at coordinating 
casework disciplines. And one I want to particularly mention is 
Families Achieving Success Today that was actually part of a 
randomized control trial through the U.S. Department of Human 
Services, where we were integrating adult mental health, 
children's mental health, along with TANF financial worker, the 
financial assistance piece, as well as child care, in a 
collocated, collaborative effort.
    It was a 1-year study, so it showed promising efforts. We 
don't have anything beyond that. But we do know that, having 
those services together in one spot absolutely improved their 
access to--our families' access to services, as well as 
improved their outcomes.
    One note of caution I would give is that we have been part 
of these types of collaborative casework models in the past. 
However, they did not include employment, and we did not see 
the results that we wanted to see. This particular one, 
Families Achieving Success Today, all the providers, whether it 
is mental health, whether it is health care, they were all on 
board, that employment is what we are trying to achieve with 
the families we were serving, and we saw great success with 
that. So thank you.
    Mr. YOUNG. Perhaps that program will move from the 
promising phase to proven, or will identify a variant to that, 
will be a better model, and so forth.
    I recognize I am out of time, so I will yield back.
    Chairman BOUSTANY. I thank the gentleman. Mrs. Noem.
    Mrs. NOEM. Thank you, Mr. Chairman.
    Mr. Collins, I wanted to visit with you about a loophole 
that currently exists within the TANF program. And, as you 
know, the TANF program states that it must engage 50 percent of 
adults on welfare in worker activities related to work. South 
Dakota, my home State, does a great job of this, but many other 
States are failing to engage to the same level.
    Under current rules, the loophole says--it is called the 
Excess Spending Loophole--that States can reduce the share of 
people they have to engage in work by simply looking for 
spending of non-profits, charities, food banks, other third 
parties, and the States, and how much they are spending on poor 
families. They then add up all this third-party spending, and 
report it as if it was actually spending that the State was 
engaging in. And, by reporting this excess spending to HHS, 
they reduce the number of welfare recipients that they are 
required to help.
    In fact, in some cases, States have reduced their 50 
percent work participation requirement to a 0 percent. And, you 
know, through this bill that we have proposed, the TANF 
Accountability and Integrity Improvement Act, that I have 
introduced and which is a part of this discussion draft that 
the Committee has put together on TANF reforms, it would put a 
stop to some of those activities.
    I was wondering if you could give me some feedback on that 
loophole, if you think that these recommendations to fixing 
that problem are good in the discussion draft, and if you think 
that it will be effective in making sure that some of the 
States implement changes that would reflect more of what is 
done in my home State of South Dakota?
    Mr. COLLINS. Thank you, Congresswoman, for that, and for 
your leadership on this particular part of the discussion 
draft.
    As you are well aware, the current TANF purposes do allow 
for such excess maintenance of effort to be applied against the 
work participation rate. And, as you rightly mention, there are 
numerous ways in which this can be done, including volunteer 
hours of Boy Scout leaders, as well as coaches and Shriners 
and--it is, really, almost endless, the number of ways in which 
the rate can be essentially avoided, by providing all of these 
excess maintenance of effort opportunities.
    So, I believe this is probably one of the more far-reaching 
components of the discussion draft, being able to put a stop to 
this. It eviscerated the work participation rate, as we know 
it. Whether you agree on what work activities we are to do, the 
idea of having to engage with someone is the start of a 
conversation that will allow them to propel forward.
    If you provide such loopholes, the incentive for States to 
really go and reach out to people and engage them productively 
goes away. So I think that what has been envisioned for the 
discussion draft is exactly what is needed right now.
    Mrs. NOEM. While you worked at HHS, did you see some States 
engaging in these activities, or some States that were, 
potentially, the worst offenders?
    Mr. COLLINS. So, to be fair, I would--most States 
participated in it to some degree or another. It is 
unfortunate, because it really did reduce the work requirement. 
I would like to commend all those States, post-DRA, that 
actually did meet the 50 percent work participation rate.
    I agree with my colleague, Ms. Cox, that the activities 
really should be an on-ramp to employment. So it is not really 
about putting people in activities for activities sake, but 
that, really, the pressure that the rate was supposed to 
provide, really, was only 50 percent. And, if you think about 
it, that is half. I mean we can do far better than that.
    Mrs. NOEM. Yes, I saw you nodding your head. Since I have a 
little bit of time left, when they were talking about the 
Families Achieving Success program today, did you have some 
experience with that program, as well, or some feedback to give 
on the success of that study?
    Mr. COLLINS. I have just some familiarity with the strong 
case management approach that the State of Minnesota takes. 
They are very serious about how they engage with participants.
    I was nodding my head, because I run a program in New York 
City that sees 80,000 people a year that does something very 
similar.
    Mrs. NOEM. Okay. And it has been a successful program?
    Mr. COLLINS. It has been a very successful program. This is 
a program where most States would have exempted these 
participations altogether, because they pose some health 
challenges to the organization. We see that, after 485,000 
independent medical assessments we have been able to do over 
the 10 years--not my company, but the program itself--half of 
everyone can actually work. And a third, while they might be 
sick today, can heal, and those too can work, as well. And very 
few people end up on Federal disability.
    Mrs. NOEM. What was the name of the program in----
    Mr. COLLINS. It is called WeCARE, Wellness, Employment, 
Comprehensive Assessment, Rehabilitation, and Employment.
    Mrs. NOEM. Thank you.
    Mr. COLLINS. You are welcome.
    Mrs. NOEM. I yield back, Mr. Chairman.
    Chairman BOUSTANY. I thank the gentlelady. We will now go 
to Mr. Davis.
    Mr. DAVIS. Thank you very much, Mr. Chairman, and I want to 
thank the witnesses for being here.
    You know, I was just thinking that I believe that work is 
love made visible. Therefore, I am delighted with the focus of 
this hearing. I have advocated for improvements to TANF and the 
fatherhood grants to increase the economic well-being of 
parents, especially non-custodial fathers, since Fathers Day 
2007. The draft bill before us contains many of the tenets of 
the Responsible Fatherhood Act, which is supported by numerous 
national organizations, including the National Fatherhood 
Initiative, Concerned Black Men National, the Center for Family 
Policy and Practice, One Hundred Fathers, Incorporated, the 
Children's Defense Fund, and others.
    I applaud the bill for increasing access to education and 
training, and focusing on actual employment, including 
subsidized employment. I look forward to working with you, Mr. 
Chairman and the Ranking Member, to consider additional 
provisions to support non-custodial fathers and families, such 
as lifting the 30 percent cap on education, limiting the 
marriage penalty for Fiscal Year 2007 until enactment, ensuring 
that participation in healthy marriage or fatherhood programs 
is voluntary, and making clear to States that they can provide 
non-custodial parents the same work supports as custodial 
parents.
    Further, I would like to work with you, Mr. Chairman and 
the Ranking Member, to include provisions that would better 
support kinship caregivers. I know that many Members of this 
Subcommittee come from States with high percentages of 
grandparents raising grandchildren. And I believe Louisiana has 
the second-highest percentage of grandchildren in the care of 
grandparents in the Nation, with North Carolina, Texas, South 
Dakota, Georgia, and Illinois having high rates, as well. I am 
preparing to introduce a bill to improve supports for kinship 
caregivers, mainly through increased notice, improved data, and 
State reporting to improve services and supports within TANF.
    Mr. Brown, I know that your organization has been 
advocating for fathers' engagement in children and family well-
being. And I hear that your organization works with low-income 
fathers, often those with criminal backgrounds, to help them 
support their children, both financially and emotionally, and 
to provide them skills to become economically self-sufficient 
and socially empowered parents and citizens. Could you 
elaborate a little bit on that program, and what do you think 
Federal funds really do for it, and how might we improve?
    Mr. BROWN. Sure. Thank you for the question, Mr. Davis. 
Yes. So we have been part of the fatherhood initiative--our 
Father Project has been in existence for well over a decade. We 
have been funded by the Fatherhood--responsible fatherhood 
funding through the Federal Government for the past 5 years, 
and been part of the study, as well.
    We find that fathers are an important part of the solution 
to--for low-income families and moving people out of poverty. 
Our work, working with fathers, it is a wide array of services, 
including parenting--parenting classes, co-parenting, 
relationship-building. Because, even if you don't get along 
with your partner, you need to be there for your children. And 
so, really working with families on how can they co-parent, 
even if they don't get along, or they are not together any 
longer, that is a big part of our initiative.
    Employment. Of course, we are a workforce development 
agency. Employment is a key. We want to increase child support 
for the families from the non-custodial, to the custodial 
parent, making sure that those children's needs are met. So I 
think it is an extremely important part of TANF and moving 
people out of poverty. So I commend you on making sure to 
include fathers and fatherhood initiatives in the TANF reform.
    Mr. DAVIS. Thank you very much.
    Mr. BROWN. Thank you.
    Mr. DAVIS. Thank you, Mr. Chairman. And I am pleased that 
each one of the witnesses puts an emphasis on the engagement of 
fathers, and I appreciate that very much.
    Chairman BOUSTANY. I thank the gentleman. We will go to Mr. 
Holding next.
    Mr. HOLDING. Thank you, Mr. Chairman. During the course of 
this year, and the hearings that we have had, and where I have 
learned about TANF and some other programs, it is striking how 
bureaucracy can somehow get in the way of results. And, under 
TANF, States are required to have 50 percent of their caseload 
engaged in work or activities to prepare for work. That is, an 
adult must be in specified activities, work, job search, 
training for a number of hours a week. I have learned that.
    But I have also learned, however, there is a marriage 
penalty in TANF, and one that encourages States to not serve 
two-parent families, and that can penalize individuals on TANF 
if they marry. And I am kind of stunned at that. So, under 
current TANF law, it establishes a separate, higher 
participation standard that applies to two-parent families. So 
these families must meet additional work requirements beyond 
that of a single-parent family. Of course, we all want two-
parent families.
    So, I have introduced the TANF Marriage Penalty Elimination 
Act last week to address this issue by ending the separate and 
higher requirement for two-parent families. And I am grateful 
that this has been included as a provision in our Ways and 
Means discussion draft which we released on Friday.
    So, first to you, Mr. Kelly, do you think this is a step in 
the right direction, to treat single parents and married 
parents equally in the TANF program? And can you flesh out why 
that is--if you feel so inclined?
    Mr. KELLY. I would say, based on our experience, that the 
key is to start from wherever that family happens to find 
themselves. So we can't start from the premise that, you know, 
if it is a single-parent family, well, it would be great if 
both parents were there, because that is just not always 
possible. And you can't start the other way, either. You always 
have to start with where they are.
    So, as our caseworkers have met with families that are in 
need, you don't go in with a pre-conceived notion of something 
that is ideal. You start with where they are, and go from 
there. Having said that, I don't think there is any question 
that it has been proven to be healthier for children to grow up 
in an environment where both parents are involved. You know, we 
all have our idea of what the ideal family construct is, but I 
think statistics are pretty clear that we are better served 
when both are involved.
    In our own study, it has become clear that a child that 
grows up in poverty is 32 times more likely to be in poverty as 
an adult. So, the sooner we begin to engage, the better off we 
are going to be. But we would be very supportive of a 
philosophy moving forward where we are encouraging involvement 
of a two-parent family, but from the perspective of 
understanding where people find themselves at that moment when 
they come to us, that effective case management is going to be 
case management where we identify the needs of the family at 
that time, and build an individualized plan that helps them to 
move forward.
    Mr. HOLDING. Ms. Cox, in the minute that I have remaining, 
if and why do you think it is important that we take measures 
to eliminate the marriage penalty, and ensure that TANF is 
supporting or encouraging two-parent families?
    Ms. COX. Absolutely, we think it is going in the right 
direction.
    The one question I have around this, though, is if you 
want--you know, tell me how you measure me, and I will tell you 
how I behave. Right? So, if in the outcome measures that you 
are going to be looking at, how do you count leaving TANF for 
increased income because of marriage? And I think that is a 
point to think through, as we look at performance measures, and 
making sure that, if people leave because of that--and we want 
to encourage that--that States aren't penalized because of that 
in the actual denominator-numerator formula in the performance 
measures.
    Mr. HOLDING. Good, thank you.
    Mr. Chairman, I yield back.
    Chairman BOUSTANY. The gentleman yields back. Mr. Dold, you 
are recognized.
    Mr. DOLD. Thank you, Mr. Chairman. And I certainly want to 
thank you for holding this important hearing. I want to thank 
our witnesses for your testimony and for your insights. We 
certainly appreciate that.
    I believe--and, Ms. Cox, you stated in your testimony that 
work is--well, it is transforming lives. And I believe that the 
best way out of poverty is a job. And while moving welfare 
recipients into employment is the central goal of TANF, some 
welfare recipients have a difficult time transitioning from 
welfare into work.
    In some cases, employers may be reluctant to hire welfare 
recipients if they have limited work experience or other 
barriers to work. That is why I recently introduced the 
Accelerating Individuals Into the Workforce Act. This bill, 
which now has been incorporated into the larger TANF discussion 
draft which we are reviewing today, would provide funds for 
States to test methods of subsidizing employment for TANF 
recipients to better help these individuals find jobs and 
become self-sufficient.
    In addition to providing funds for subsidized jobs, the 
bill requires a high-quality evaluation of each project to 
determine whether the project was effective in helping welfare 
recipients move into and stay in work.
    Mr. Collins, do you think that providing short-term partial 
wage subsidies to employers might be a way to encourage them to 
hire welfare recipients and keep them as employees over the 
long term?
    Ms. Cox, if you have something to say, you can jump in 
there, too, and then we will go right back to Mr. Collins.
    Ms. COX. Oh, okay, sorry. We actually did a study to look 
at what participation activities correlated to employment 
outcomes. And this was on the top four, ``Subsidized 
Employment.'' Again, my caution is not to do it for government 
entities. And, you know, it should go to the private sector, 
for sure.
    But the other piece to be aware of is WOTC, the Work 
Opportunity Tax Credit that employers could already benefit 
from, from getting certain populations that are vulnerable into 
employment. So how to subsidize employment, correlate or work 
with WOTC, so that some employers aren't double-dipping. Just 
something to be mindful of, as well.
    Mr. DOLD. Okay. Mr. Collins.
    Mr. COLLINS. Congressman, the details on that will matter. 
I will tell you one of my biggest concerns is presenting 
someone to an employer as if, for example, they are a 
discounted individual. So we would have to be careful about how 
that subsidy is represented for that individual. Most employers 
have told me over the years that they are just looking for 
somebody who wants to work, and they are less concerned about 
the credits and such that go along with the individual if they, 
in fact, can do the work.
    So, I think it is a great opportunity, as I do many other 
work activities. There is more than one way to get there.
    Mr. DOLD. Sure.
    Mr. COLLINS. So I think having subsidized employment be a 
part of the arsenal, if you will, is a great opportunity.
    Mr. DOLD. Well, so, can you talk to me a little bit more 
about some of those other barriers? I mean, obviously, I am a 
small business person, and obviously, what we find is once 
people get in, and you have an opportunity to take a look at 
how they are working, they do a great job. What are some of the 
barriers in trying to get some of these people that are down on 
their luck into the workforce, so that they have that 
opportunity?
    Mr. COLLINS. It is a great question. Most of it is their 
self-view, whether or not they believe that an employer will be 
willing to accept their background, or whether or not they have 
enough education. A lot of it is the perception of how they see 
themselves.
    If we are able to get them to overcome that, whether it is 
through on-the-job training and/or subsidized employment, or 
whatever form of engagement, really, all we are trying to do is 
to get them, really, to see themselves in a different light, 
and one in which they understand what employers are looking 
for, and then be able to sort of show those skills and 
abilities at that point. On-the-job practices, which I would 
refer to subsidized employment as being, is a great way to do 
that.
    Mr. DOLD. Well, and part of that--really, what we are 
trying to do is we are trying to make sure that there is an 
easy on-ramp into employment. And giving employers an 
opportunity to say there are training costs that are going to 
go into there, and that on-the-job training is potentially some 
of the best, that is really what, hopefully, this program is 
trying to do. What would you anticipate some of the complaints 
or some of the issues from some small businesses to be?
    Mr. COLLINS. I would be concerned about the cliff effect of 
what would happen after the subsidy ran out, and whether or not 
they are willing to continue the employment of that individual, 
or if--whether or not they would be interested in, essentially, 
going and finding another individual who came with a subsidy. 
Because it does keep their costs down.
    So, again, it is all in the details of how this gets rolled 
out, so that we avoid that. But that would be my biggest 
concern.
    Mr. DOLD. Thank you, Mr. Chairman. My time has expired.
    Chairman BOUSTANY. The gentleman's time has expired. We 
will go to Mr. Crowley next.
    Mr. CROWLEY. Thank you, Mr. Chairman. And I want to thank 
you with the full sincerity--I think I can speak for the entire 
side of my aisle--for holding this hearing today, and for 
working in a bipartisan way on the discussion draft that was 
released last week. So thank you, Mr. Chairman.
    There are a lot of improvements we can make to the TANF 
program. But for too long now, we have just been simply 
renewing it with short-term extensions. So I appreciate the 
chance to take a serious look at what we can do and do better.
    There is some good progress in the discussion draft, as I 
said. It moves the focus of the program more significantly 
toward actual poverty reduction. And I am glad that the bill 
includes some of the program improvements that my Democratic 
colleagues and I have been advocating for years now. But I have 
to say that I am disappointed at what is not in the bill, and 
namely no new funding for child care.
    Child care can make the difference that enables a parent to 
work, put food on the table, and lift themselves and their 
families out of poverty, knowing that their child is being 
adequately cared for. We have had a lot of focus on work 
participation in TANF. But, as I have said before, work 
participation has to go hand in hand with ensuring there is 
adequate access to child care. Working parents need to know 
that their children are being safely cared for while they are 
looking for work or are working.
    Dr. Pavetti, do you agree that a greater investment in 
child care would be a significant help to move people out of 
poverty through the TANF program?
    Ms. PAVETTI. Absolutely. I think that, for many families--
and it really varies by State, how much States have devoted 
their resources to child care, but in some places there is a 
long waiting list for child care, and families can't get child 
care to be able to go to work. And I think, without it, we are 
putting kids at risk, and we are making it so much harder for 
families to do what they want to do, which is either to go to 
school or to go to work to be able to provide for their 
families.
    So, I think child care is absolutely essential, and I agree 
with you, that there is a desperate need for more resources to 
actually fund child care.
    Mr. CROWLEY. And would you agree that child care should be 
considered as part of a TANF reauthorization?
    Ms. PAVETTI. Yes, because I think that it is hard to sort 
of imagine that you are going to put more people to work, and 
you don't have more funds for child care, because it just 
doesn't add up that you can--you know, child care is much more 
costly than grants, so you can't just say instead of being on 
TANF they will get child care. It just doesn't work.
    So, it will create a bottleneck, and it will make--again, 
it will put kids at risk. Because if families feel that they 
have to go to work, and they don't have the adequate child 
care, they will piece it together, and it is the kids in the 
families who will be harmed by that.
    Mr. CROWLEY. Thank you. The child care assistance provided 
by TANF and other Federal programs is critical. In the majority 
of States, including my home State of New York, child care 
costs an average of more than the cost of a year at college. 
The Federal assistance provided through TANF is a tremendous 
help to working families, who still pay almost 60 percent of 
the cost of child care.
    But the Federal investment of child care assistance has 
failed to keep pace with the need and, in fact, is serving 
fewer children today than it did in the last decade. I have 
authored the Child First Act to increase the Federal investment 
in child care, and to close this gap. I will soon be 
reintroducing this legislation, which will provide the funding 
needed to serve more than 2.6 million children over 10 years, 
as recommended in the President's budget. This funding is an 
investment in successful child care programs, yes. But also in 
the parents and families that are trying their hardest to lift 
themselves out of poverty.
    Now, I know some might claim we can't add new funding. But 
those objections didn't stand in the way when my colleagues on 
the other side added $610 billion to the deficit through 
permanent tax cuts for businesses without being paid for. If we 
want to seriously help families find work and escape poverty, 
then we should seriously consider increasing child care funding 
as a part of this reauthorization.
    I hope my colleagues on the Subcommittee and the full 
Committee will look at this issue very closely. I look forward 
to working with all of you on this, and on other areas in need 
of improvement, such as further improving access to vocational 
education and lifting barriers that block hard-working legal 
immigrant families from participating in these programs.
    Let's take this opportunity and really improve, strengthen, 
and move the TANF program forward for today's families. Thank 
you, Mr. Chairman.
    Chairman BOUSTANY. I thank the gentleman. His time has 
expired, and we will go to Mr. Smith next.
    Mr. SMITH. Thank you, Mr. Chairman. The TANF program 
currently has four purposes, which are generally to provide 
help to needy families; independence from welfare through job 
preparation, work, and marriage; to prevent unmarried births; 
and, four, to encourage the formation and support of two-parent 
families. While each of these purposes touches on poverty, none 
explicitly sets a goal for the program to reduce poverty by 
promoting work, instead of simply treating the symptoms of 
poverty day to day.
    That is why, last week, I introduced the Reducing Poverty 
Through Employment Act, to explicitly highlight the connection 
between poverty reduction and work. My bill would add a new 
purpose to TANF, which is to reduce poverty by increasing 
employment entry, retention, and advancement. The same 
provision is also in the larger TANF discussion draft that is 
the focus of the hearing today.
    Mr. Brown, you talk about the importance of employment 
goals, and how setting these goals helps people escape poverty 
over the long term. Do you think adding this purpose to TANF 
will help others put a greater focus on employment, as well?
    Mr. BROWN. Thank you for the question, Mr. Smith. Yes, I do 
agree with you. Both professionally and personally I have 
dedicated my career to helping people move out of poverty, and 
I think TANF is definitely an important part of that. However, 
what I would say is that TANF is really a small part of the 
solution, because most people coming off of TANF are not out of 
poverty.
    What I would like to really look at in your language is 
around entry, retention, and advancement. I think those are 
key, you are correct, entry into employment, retention, and 
advancement. With TANF, people, when they make a certain amount 
of income, they go off. And a lot of times the retention and 
advancement is missing. And we need to dedicate more time, more 
resources to really working with them to help them advance, 
continue to move on that career pathway.
    The other thing I would suggest in regard to this is 
education and training is key to moving people out of poverty. 
So, in addition to employment, retention, and advancement, I 
would say that education and training is also a key component 
to getting people to really--to family-sustaining wages. So 
thank you.
    Mr. SMITH. Thank you very much. Thank you, Mr. Chairman.
    Chairman BOUSTANY. The gentleman yields back. We will next 
go to Mr. Renacci.
    Mr. RENACCI. Thank you, Mr. Chairman. Thank you for 
allowing me to be part of this hearing. And I want to thank the 
witnesses, also, for being here and for your testimony.
    Mr. Brown, your story about Elizabeth kind of touched home, 
because I was--I had met with Stark--or actually, Summit County 
Department of Jobs and Family Services, which is a large county 
in my district. I met with their Executive Director because he 
had indicated to me that it was very difficult to meet some of 
the requirements of TANF, but it is also very difficult when 
many of these individuals don't have their GED, and there is 
the education requirement.
    So we know the current TANF law really requires States to 
engage 50 percent of adults on welfare in certain work 
activities, and some activities only count for certain people, 
or for a brief period of time. In addition, if someone works 1 
hour less than a number required, the State gets no credit for 
that person's participation at all. And these were kind of the 
issues that he brought up to me, and that his staff brought up 
to me.
    Last week I introduced a Preparing More Welfare Recipients 
for Work Act, which is folded into the larger Committee 
discussion draft that would address this by making a number of 
changes, such as giving States partial credit for individuals 
who participate for less than the full hours required under 
current law; eliminating some of the restrictions on how long 
participation in certain activities can count toward the State 
requirement; and allowing participation in some educational 
activities to count for more individuals and for longer periods 
than under current law, which I think is really important, and 
touches somewhat on your Elizabeth's story, Mr. Brown.
    Do you think this added flexibility would help you better 
serve those families you are serving now?
    Mr. BROWN. Yes, I would absolutely agree with you, that 
this is definitely a step in the right direction. However, what 
I would say also is, beyond just more flexibility, we really 
want to focus more on outcomes.
    So, for example, if someone is in education, they are in a 
community college or they are working on a GED, we are really 
focusing on those education hours. So we are counting those 
hours, getting logs in on those hours. How important, really, 
is that? Really, what is important is what kind of progress are 
they making in that education. Are they finishing those 
classes? Are they getting credits? Are they getting those 
degrees, or completing those degrees? We really want to focus 
what we are doing on progress and outcomes versus process.
    The other thing I would mention is that, even with that 
flexibility and the activities that you are asking us to do, 
one of the other things that that leads to is just more 
documentation and verification of those activities. It doesn't 
alleviate that concern. When 53 percent of our counselors' time 
is really chasing after documentation and verification of those 
activities, that leaves a lot less time to really be looking at 
what does this person need to gain self-sufficiency, to meet 
those employment goals.
    So, really, what I would like to see is that, if you are 
going to ask us to report back on activities, it is more on 
what really matters. How are they approaching and progressing 
and meeting those goals?
    Employment is another example. So they are out job 
searching. What does that really tell us, unless we know what 
are those leads, what employers have they actually connected 
with and interviewed with? What employers have our counselors 
engaged with that can lead to employment with those folks? Just 
verifying hours is not helpful in meeting those families' 
goals.
    Mr. RENACCI. Mr. Kelly, your thoughts on some of the 
flexibility?
    Mr. KELLY. I think, as referenced earlier, that we have 
seen significant improvements in the education field, based 
predominantly on some flexibility and the ability to create 
individual progress plans for people. I don't know how we can 
get away from that as being one of the significant steps as we 
move forward. So some of that flexibility, I think, is 
absolutely required.
    I think everybody sitting at the panel has used the word 
``outcomes'' and ``accountability'' in some form. So even those 
of us who feel as though some additional assistance is 
necessary or can be tinkered with in one way or the other, we 
are all in agreement that we should run this in a highly 
professional, businesslike way, and you can't do that without 
having significant accountability steps in place.
    So, we need outcome measures, clearly-defined outcome 
measures, but not without enough flexibility to help the 
individual needs of the people involved.
    Mr. RENACCI. Thank you, Mr. Chairman. I yield back.
    Chairman BOUSTANY. I thank the gentleman.
    At this time I would like to take a moment to congratulate 
our current Legislative Assistant on the Subcommittee, Levi 
Stoep. Levi is leaving us today to begin law school. And, Levi, 
I just want to say well done, and best of luck for the future. 
Thank you for the great work.
    I want to thank all of you for being here today to provide 
testimony before the Subcommittee. It has been very, very 
valuable in our efforts to move forward in this TANF 
reauthorization. I want to thank the Members for their 
participation and the great work in putting this legislative 
draft together.
    Members may have additional questions that come up, and we 
will submit those in writing. And we would ask that you try to 
respond within 2 weeks so we can make this part of the 
completed record.
    And, with that, the Subcommittee now stands adjourned.
    [Whereupon, at 11:58 a.m., the Subcommittee was adjourned.]
    [Submissions for the Record follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
